National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001


                                          May 9, 2008

TO:            Associate Administrator for the Space Operations Mission Directorate
               Assistant Administrator for Procurement
               Director, John C. Stennis Space Center
               Manager, Rocket Propulsion Test Program Office, John C. Stennis
                 Space Center
               Manager, White Sands Test Facility
               Manager, Plum Brook Station

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on the Audit of NASA’s Management of the Test
               Operations Contract (Report No. IG-08-019; Assignment
               No. A-07-016-00)


The Office of Inspector General (OIG) has completed an audit of NASA’s management
of the test operations contract (TOC) for rocket propulsion systems and components at
Marshall Space Flight Center (MSFC) and Stennis Space Center (SSC).

Our audit objective was to determine whether NASA had employed sufficient analysis in
determining the scope of the TOC and to determine whether NASA had effectively
assessed test operations requirements for the rocket propulsion systems and components
at the time of contract award. Specifically, we determined

   •   whether NASA performed sufficient analysis to determine which test sites to
       include in the TOC,

   •   whether NASA had adequately defined test operations requirements at the time
       the contract was awarded to protect against “out of scope” changes or cost
       growth, and

   •   whether Government surveillance and contractor performance evaluations were
       providing reasonable assurance that efficient methods and effective cost controls
       were in use.

We also reviewed internal controls as appropriate. (See Enclosure 1 for details on the
audit’s scope and methodology.)
                                                                                                         2



Executive Summary
We found that NASA had not performed sufficient analysis in determining which test
sites to include in the TOC; that NASA had adequately defined test operations
requirements at contract award; and that Government surveillance and contractor
performance evaluations were providing reasonable assurance that efficient methods and
effective cost controls were in use.

In 2002, NASA’s Strategic Resources Review (SRR) included an initiative to consider
consolidation of the four support contracts for rocket propulsion testing that existed at
that time: SSC; MSFC; Johnson Space Center (JSC), White Sands Test Facility (WSTF);
and Glenn Research Center (GRC), Plum Brook Station (PBS). The SRR solicited and
reviewed rudimentary data and monetary impact projections related to potential contract
consolidation options and recommended consolidating all of NASA’s rocket propulsion
test operations contracts. The SRR recommendation was to consolidate contracts for all
of the test sites into one contract. The SRR recommendation was based on potential
benefits that included approximately $70 million in savings, 1 more competition, and
fewer Source Evaluation Boards. NASA’s rudimentary review lacked evidence of clear
policy rationale and a cost-benefit verification.

Office of Management and Budget (OMB) Circular No. A-94, “Guidelines and Discount
Rates for Benefit-Cost Analysis of Federal Programs,” October 29, 1992, recommends,
but does not require, that a cost-benefit analysis be used as a management tool when
reviewing and considering implementation or changes in Government programs or
projects. OMB Circular A-94 provides general guidance for conducting cost-benefit
analysis, to include four elements (policy rationale, explicit assumptions, evaluation of
alternatives, and cost-benefit verification) to help meet the goal of promoting efficient
resource allocation through well-informed decision-making. As a best business practice,
NASA should have conducted and documented a more robust analysis of alternatives to
support the original SRR contract consolidation recommendation.

The SRR recommendation to consolidate the test contracts for NASA’s four test sites was
ultimately rejected by management at WSTF and PBS, citing concerns such as skepticism
related to savings projections and perceived loss of control. 2 In November 2002, a
follow-on acquisition strategy meeting was held, where it was decided to proceed with
consolidation of only the SSC and MSFC contracts into the TOC. The TOC was awarded
in 2003. NASA’s test facility operations at WSTF and PBS continued to be supported
independently by separate contracts that are not part of the TOC.

We found that NASA had adequately defined the test operations requirements at contract
award for the TOC to protect against “out of scope” changes or cost growth.

1
    Consolidation options and potential benefits were listed in archival PowerPoint charts without any
    supporting documentary evidence.
2
    Cited concerns related to WSTF and PBS rejecting the SRR recommendation were included in archival
    PowerPoint charts without any supporting documentary evidence.
                                                                                            3



Additionally, we found that Government surveillance and contractor performance
evaluations for the TOC were providing reasonable assurance that efficient methods and
effective cost controls were in use. We did not evaluate contract requirements definition
or Government oversight of test support contracts at WSTF or PBS because those sites
are supported by separate contracts that are independent of the TOC.

In our March 17, 2008, draft of this memorandum, we recommended that the Associate
Administrator for the Space Operations Mission Directorate (SOMD), via the Manager,
Rocket Propulsion Test Program (RPT), conduct a cost-benefit analysis to determine
whether further consolidation of NASA’s operations contracts for rocket propulsion
testing into the TOC would be beneficial to the Agency. To facilitate further contract
consolidation negotiations, the cost-benefit analysis should be conducted before the
WSTF test support contract’s completion date (April 29, 2009) and before exercising the
next option year for the PBS test contract.

In response to the draft of this memorandum (see Enclosure 2), the RPT Manager
concurred with the recommendation, stating that the RPT office will conduct the cost-
benefit analysis and, based on the results and other decision criteria, recommend a TOC
procurement strategy. Although management did not provide a timeframe for completing
the cost-benefit analysis, management’s comments are responsive and the
recommendation is resolved. We will close the recommendation upon completion and
verification of management’s corrective action.

In addition, the GRC Director also provided comments on a draft of this memorandum.
The GRC Director stated that in 2005 the Center had consolidated other GRC contracts
for test operations resulting in contract commitments that could extend the contract into
calendar year 2015, further recommending that the cost-benefit analysis be delayed until
that contract nears completion. The GRC comments also included a concern that use of
archival PowerPoint presentations to reflect the Center’s reasons for opting out of the
original TOC consolidation effort, without discussing GRC’s position or rationale with
senior management, resulted in an incomplete and misleading description of GRC’s
position.

Although we believe that additional GRC rocket propulsion test-related contract
commitments negotiated subsequent to the 2002 TOC consolidation effort would be a
factor in a cost-benefit analysis, those additional contract commitments should not
preclude or delay the cost-benefit analysis effort. Therefore, we have not changed our
recommendation.

As to our use of the PowerPoint presentation, during the course of our audit we were
unable to locate any documentary evidence of GRC’s position. However, at the GRC
Director’s suggestion, we provided GRC with an opportunity to provide additional
information concerning its original position on the TOC consolidation efforts. In
response to our request, the point of contact cited an almost complete turnover of
leadership at GRC since 2002, which precluded his ability to provide additional
                                                                                          4



information or clarifications to the original GRC position indicated in the PowerPoint
slides we referenced. As a result, we made no changes to the final report.

Background
NASA maintains four test sites for rocket propulsion systems and components. Those
test sites are located at SSC, MSFC, WSTF, and PBS. SSC is NASA’s primary Center
for the testing and flight certification of rocket propulsion systems for the Space Shuttle
and future generations of space vehicles, as well as for non-hypergolic, ambient/low-
altitude testing. MSFC is the primary site for testing components designed and
developed at MSFC and for testing cryogenic structural articles (tanks, ducts, etc.).
WSTF, part of JSC, is the primary NASA site for altitude testing of small to medium test
articles (up to 1,500 pounds of thrust) that do not use liquid oxygen or liquid hydrogen
fuel. WSTF also does all hypergolic testing. PBS, part of GRC, is the primary NASA
site for altitude testing of non-hypergolic medium to large test articles (1,000 to 400,000
pounds thrust) and does all liquid oxygen and liquid hydrogen testing.

The TOC is a consolidation of individual contracts previously in place for test support at
SSC and MSFC. The management structure and scope of the TOC is a derivative of
management evolution and contract consolidation reviews over the past decade. On
May 30, 1996, the NASA Associate Administrator for the Office of Space Flight
established SSC as the lead Center for rocket propulsion testing, with authority and
responsibility for managing all of NASA’s rocket propulsion testing assets, activities, and
resources; developing testing and facility investments; consolidating capabilities and
assets; and determining where tests are to be performed across the NASA Centers.
Subsequently, on August 20, 1996, the SSC Director established the Rocket Propulsion
Test Management Board (RPTMB) to review, approve, and provide direction on all
rocket propulsion testing assignments, all capital investment recommendations, and
annual budget requirements.

In 2001, the NASA Administrator instituted the SRR as an Agency-wide initiative with
the authority to identify workforce and infrastructure capabilities that NASA would
require to perform its mission in the 2001–2010 timeframe. Center Directors and senior
Agency managers were normally the management officials responsible for SRR actions.
On August 28, 2001, the NASA Administrator issued a memorandum, “Strategic
Resources Review Offsite Meeting,” that tasked each Center Director to provide
candidates for commercialization, competitive sourcing, consolidation, partnerships,
elimination, restructuring, and strengthening. In 2002, SRR #139 recommended
consolidation of rocket propulsion testing contracts across NASA.
                                                                                                          5



In May 2005, the NASA Deputy Administrator approved a Program Commitment
Agreement 3 (PCA) establishing the RPT office at SSC that reported to the Associate
Administrator for SOMD. Further, the PCA gave the Associate Administrator the
authority to establish SOMD programmatic direction, determine long-term institutional
investment strategies to ensure consistency with the Agency’s Strategic Plan, and resolve
disagreements that arise between Centers on program management and budget issues.

The RPT office manages the TOC, which supports the testing of rocket propulsion
systems and components at both SSC and MSFC. However, the respective contracts for
test operations at WSTF and PBS are separate contracts managed by each location. As
such, the Agency maintains the following three separate contracts for rocket propulsion
testing:

      •    the Test Operations Contract (contract NNS04AB62C) for testing at SSC and
           MSFC, with Sverdrup Technology, Inc. a subsidiary of the Jacobs Engineering
           Group, Inc.

      •    contract NNJ06HC01C for testing at WSTF, with Jacobs Technology, Inc.

      •    contract NAS3-00123 for testing at PBS, with Plum Brook Operations Support
           Group (PBOSG).

Performing Sufficient Analysis for Test Operations Contract Consolidation
We found that NASA had not performed sufficient analysis in determining which test
sites to include in the TOC.

In 2002, SRR #139 considered consolidating test contracts across NASA. The SRR #139
team was headed by the SSC Deputy Director and included management representatives
from SSC, MSFC, WSTF, PBS, JSC, and GRC. SRR #139 identified four consolidation
options:

1. Consolidate only test personnel at each site.

2. Consolidate all personnel at WSTF and PBS, and consolidate only test personnel at
   SSC and MSFC.

3. Consolidate all personnel at WSTF and PBS, and consolidate all test and technical
   services contracts (TTSC) and test personnel at SSC and MSFC.




3
    NASA Procedural Requirements 7120.5D, “NASA Space Flight Program and Project Management
    Requirements,” March 6, 2007, Appendix A, “Definitions,” defines a Program Commitment Agreement
    as the contract between the Associate Administrator and the cognizant Mission Directorate Associate
    Administrator that authorizes transition from formulation to implementation of a program.
                                                                                          6



4. Consolidate all personnel at MSFC, WSTF, and PBS, and consolidate all TTSC and
   Facility Operations Services Contract personnel at SSC.

SRR #139 recommended that the contracts be consolidated based on Option 2, citing
potential benefits that included approximately $70 million in savings, more competition,
and fewer Source Evaluation Boards. The RPTMB drafted a directive to consolidate test
contracts at all four sites (SSC, MSFC, WSTF, and PBS) in order to achieve efficiencies
and provide improved sharing of personnel and resources. However, the draft directive
(2002-MB-0146-DO) was not released, and the four-site consolidation did not occur.
There is insufficient file data or documentation to ascertain why the directive to
consolidate all test contracts was not released. Even though the SRR contract
consolidation review effort included representation from all rocket propulsion testing
sites, information contained in archival PowerPoint presentations related to SRR #139
indicates that WSTF management ultimately did not support the consolidation initiative
due to professed skepticism of the savings potential, feared disruption of WSTF
activities, and was concerned about losing the support of JSC. The PowerPoint
presentation archive also indicates that although PBS was supportive of the consolidation,
GRC was not. GRC wanted to consolidate its testing contracts for PBS and wind
tunnels, perceived it would lose control, and had concerns about Small Business
Administration 8(a) set-asides.

In November 2002, a follow-on acquisition strategy meeting was convened, where it was
decided to proceed with consolidation of only the SSC and MSFC contracts into the
TOC. We were unable to find data related to projected cost savings or other benefits of
the SSC and MSFC contract consolidation into the TOC and, as such, cannot ascertain
the projected or attained benefit to the Agency.

Although NASA conducted some analysis of test consolidation alternatives in 2002 prior
to the execution of the current TOC contract, we found that NASA’s decision-making
analyses leading to the consolidation of SSC and MSFC under the TOC, or to exclude
WSTF and PBS from the TOC, lacked the rigor recommended by OMB. We were
unable to obtain any evidence that NASA verified initial assumptions, costs, or benefits
associated with the TOC consolidation initiative. OMB Circular A-94 clearly recognizes
the Government’s need to apply sound business practices to support programmatic
decisions. OMB Circular A-94 states that a cost-benefit analysis is the recommended
technique to use in a formal economic analysis of Government programs or projects. A
cost-benefit analysis is a technique for deciding whether to make a change in existing
program structure. The analysis documents and weighs the value of the benefits of a
course of action against the costs associated with that action. Cost-benefit analysis seeks
to translate all relevant considerations into monetary terms. Documentation of the
analysis should be maintained to support the resulting decisions and recommendations, as
well as to provide a basis for subsequent review to confirm attainment of projected
benefits.

Further, NASA recognized the importance of OMB Circular A-94’s economic analysis
guidelines in the Deputy Administrator’s March 13, 1997, memorandum, “Cost/Benefit
                                                                                           7



Analyses,” and more recently in the “NASA Business Case Guide for Facilities Projects”
dated April 20, 2006. The March 13, 1997, memorandum on cost-benefit analyses states
in part that “a key element in our decision making must be independent, upfront cost-
benefit analyses” when considering issues related to consolidation, downsizing,
outsourcing, and research or program elimination. NASA’s April 20, 2006, Business
Case Guide, although focused on facilities projects, recommends that the guidance
outlined in OMB Circular A-94 “serve as a checklist of whether an agency has
considered and properly dealt with all the elements for sound benefit-cost and cost-
effectiveness analyses.”

NASA management will have an opportunity to perform and use cost-benefit analysis
techniques to support the decision regarding consolidation of the Agency’s contracts for
rocket propulsion testing operations.

The TOC had a base period of performance from September 1, 2004, through August 31,
2006, and two 2-year priced options that could extend the contract through August 31,
2010. The WSTF contract runs from February 28, 2006, through April 30, 2009, and has
two 1-year options. PBS’s contract had a base period of August 1, 2000, through July 31,
2003, and seven 1-year options, through July 31, 2010.

Within existing contract performance and option periods, it is feasible that management
could effectively complete a cost-benefit analysis in accordance with OMB Circular A-94
to examine further test consolidation options if the analysis is initiated immediately and
completed by April 2009. Conduct of the cost benefit analysis prior to April 2009 would
facilitate TOC negotiations within existing TOC, WSTF, and PBS contract expiration
dates or option year execution. A formal cost-benefit analysis may reveal options that
could allow NASA to avoid costs in contract services and management oversight.

Defining Test Operations Requirements at Contract Award
We found that NASA had adequately defined the test operations requirements at TOC
award to protect against “out of scope” changes or cost growth. Specifically, we did not
find any examples of increased contract cost due to the addition or expansion of rocket
propulsion testing requirements subsequent to contract award. The scope of work for the
consolidated TOC provides for propulsion test support activities at SSC and MSFC and
was taken from previous contracts: TTSC NAS13-650 at SSC and test operations and
support contract NAS8-98099 at MSFC. SSC’s contracting for test operations began in
1971; MSFC’s in 1989. As such, contract requirements for test operations had matured
and were stable at the time of consolidation into the TOC award.

We identified five contract modifications that were issued under the Federal Acquisition
Regulation (FAR) 52.243-2, “Changes-Cost Reimbursement,” clause. None of the
modifications resulted in an increased contract value. Specifically, modification #2
authorized contract phase-in; modification #5 adjusted the period of performance to
account for contractor work stoppage created by a protest filed with the Government
Accountability Office (GAO); modification #8 changed the Overtime Premium schedule
                                                                                                                8



due to an administrative error; modification #16 changed the provisional billing rates; and
modification #28 reflected a decrease in propulsion test programs at SSC’s E Complex
and reduced the contract value for the base period.

Ensuring Efficient Methods and Effective Cost Controls
We found that Government surveillance and contractor performance evaluations were
providing reasonable assurance that efficient methods and effective cost controls were in
use. SSC established a Quality Assurance Surveillance Plan, effective September 2004,
under the terms of the TOC. Quality assurance surveillance is performed by a NASA
contracting officer’s technical representative (COTR) and the Defense Contract
Management Agency (DCMA). Surveillance responsibilities include monitoring Safety
and Technical Performance 4 along with Cost Control and Business Management. We
found that the COTR and DCMA were performing their surveillance duties and reporting
the results to the contracting officer in accordance with the Quality Assurance
Surveillance Plan. Based on these surveillance reports, the TOC contractor received high
ratings from the Performance Evaluation Board in the areas of Safety and Technical
Performance and Cost Control and Business Management.

Management’s Comments on the Finding and Evaluation of Management’s
 Comments
Management’s response to a draft of this memorandum included comments from the
GRC Director (see Enclosure 2) concerning additional contract commitments for PBS
testing activities, GRC’s original position on contract consolidation, and lessons learned
from other contract consolidations.

Management’s Comments on the PBS Contract. The GRC Director stated that while
the PBS contract we cite (NAS3-00123, the PBOSG contract) does have a July 31, 2010,
completion date for the last award term year, the contract obligations for test operations
at PBS do not expire on July 31, 2010. The Director stated that GRC performed its own
contract consolidation of testing activities in 2005, which resulted in the award of a
contract to Sierra Lobo (NNC05CA95C, the Test Facilities Operations, Maintenance, and
Engineering [TFOME] contract). This contract supports testing at both the GRC main
campus and at PBS. PBOSG activities are included in the TFOME contract as Phase C
work, which is not optional work. Consequently, GRC is contractually bound to provide
the work to Sierra Lobo unless GRC officially descopes the work or the contractor does
not perform in a manner to earn award term years. The TFOME contract has award term
provisions that can extend the contract to 2015. Attempts to descope the work could
potentially lead to a contractor claim in accordance with the contract’s “Disputes” clause.
The GRC Director recommended delaying a cost-benefit analysis to determine whether


4
    Safety and technical performance is an evaluation factor for which the contractor receives a rating based
    on the overall project management, use of resources, timeliness, and quality of the services delivered.
                                                                                           9



PBS test operations should be incorporated into the TOC until the TFOME contact is
nearer the end of its award term years.

Evaluation of Management’s Comments. Additional contract commitments would be
a factor in a cost-benefit analysis; however, the TFOME contract commitments should
not preclude or delay the cost-benefit analysis effort. A cost-benefit analysis conducted
in accordance with OMB Circular A-94 will consider all pertinent costs and benefits from
consolidating NASA’s test contracts, to include all existing contract commitments. We
understand that the extended commitments associated with the new contract may affect
the implementation dates of additional cross-Center contract consolidations that may be
supported by the cost-benefit analysis. However, since existing contracts have known
deliverables, base periods, and option years, factors related to those contracts may be
included within a cost-benefit analysis conducted at any time.

Management’s Comments on GRC’s Position on Consolidation. The GRC Director
commented on our use of archival PowerPoint slides to document that GRC did not
support consolidation and our listing of GRC’s reasons for not supporting consolidation.
The Director noted that the PowerPoint slides were from 2002 and had been prepared by
SSC, stating that our use of such documentary evidence without discussing GRC’s
position or rationale with senior management at GRC provides an incomplete and
misleading description of GRC’s position on contract consolidation. The GRC Director
recommended that a discussion with GRC occur or the references to GRC’s rationale for
not supporting consolidation be deleted.

Evaluation of Management’s Comments. On April 16, 2008, in an effort to include
additional information on GRC’s position on consolidation at the time of the Agency’s
2002-2003 TOC discussions, we asked the point of contact designated by the GRC
Director to provide additional documentation to us by April 22. However, the point of
contact was unable to provide additional documentation, citing the almost complete
turnover of GRC leadership since 2002. Consequently, this final memorandum retains
the archival PowerPoint references in order to provide rationale for the Agency not
implementing earlier recommendations to consolidate contracts for test operations.

Management’s Comments on Contract Consolidation Lessons Learned. The GRC
Director stated that GRC supports Agency efforts to achieve efficiencies and minimize
duplication, but that NASA’s own experience with contract consolidations, as evidenced
by the Systems Engineering and Institutional Transitions Study performed in the fall of
2005, has shown that contract consolidation is not always the best answer. The Director
noted that “contract consolidations can make sense when the focus is on compatible
requirements, is based on integrated strategic planning, and is structured to be responsive
to discrete projects and differences in geographic locations.” The GRC Director
recommended that our final report address the lessons learned from previous contract
consolidations, such as the Consolidated Space Operations Contract (CSOC), the Space
Flight Operations Contract (SFOC), Center Operations Support Services (COSS), and
Base Operations Support Services (BOSS).
                                                                                          10



Evaluation of Management’s Comments. Lessons learned from previous contract
consolidations may be considered within the context of the recommended cost-benefit
analysis, but the evaluation of earlier consolidation efforts, particularly consolidations
not related to rocket propulsion testing activities, is outside the scope of this audit.
Therefore, a review and analysis of other NASA consolidation efforts unrelated to TOC
are not included in this report.

Recommendation, Management’s Response, and Evaluation of
 Management’s Response
The SOMD Associate Administrator, via the RPT Manager, should conduct a cost-
benefit analysis in accordance with OMB Circular A-94 before the WSTF contract
expires on April 30, 2009, and before exercising the next option year for the PBS
contract, to determine whether it is feasible and financially prudent to further consolidate
NASA’s test contracts.

   Management’s Response. The RPT Manager concurred, stating that the RPT office
   will conduct a cost-benefit analysis with a scope including all RPT areas of
   responsibility and, based on the results and other decision criteria, recommend a TOC
   procurement strategy.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. Although management did not provide a timeframe for completion of the
   cost-benefit analysis, we consider the recommendation resolved and will close it upon
   completion and verification of management’s corrective action.

We appreciate the courtesies extended during our audit. If you have any questions, or
need additional information, please contact Mr. Vincent Scott, Procurement Director,
Office of Audits, at 202-358-0546.


   signed
Evelyn R. Klemstine

2 Enclosures
                             Scope and Methodology
We performed this audit from August 2007 through March 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives.

We conducted fieldwork at SSC in Mississippi. Our audit focused on a review of
NASA’s pre-award analyses to support its decision for consolidating rocket propulsion
testing operations under the TOC and management of the TOC. We reviewed OMB
Circular A-94, which provides guidelines related to cost-benefit analyses.

Audit research was limited due to lack of available documentation for SRR and RPTMB
contract consideration, reviews, and activities in 2002. However, we believe that the
audit evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

To determine whether NASA had adequately defined test operations requirements to
protect against “out of scope” changes or cost growth, as well as determine whether
Government surveillance and contractor performance evaluations were ensuring efficient
methods and effective cost controls were in use, we

   •   interviewed RPT and SSC procurement personnel;

   •   interviewed the TOC COTR;

   •   reviewed the contract files for the TOC (September 2004–August 2007);

   •   reviewed NASA Form 533M reports (September 2004–July 2007);

   •   reviewed surveillance reports submitted to the contracting officer by the COTR
       and DCMA (September 2004–August 2007); and

   •   reviewed the Performance Evaluation Board evaluations (September 2004–
       August 2007).

To determine whether NASA had performed sufficient analysis to justify separate
contracts for test operations at WSTF and PBS and for consolidating contracts at SSC and
MSFC into the TOC, we also reviewed the record of the January 2002 deliberations of
the SRR #139 team; documentation of the November 2002 TOC Acquisition Strategy
Meeting, which summarized management discussions regarding the consolidation of test
contracts across NASA; and the TOC budget planning sessions.

Computer-Processed Data. We did not use computer-processed data to perform this
audit.



                                                                             Enclosure 1
                                                                             Page 1 of 2
Review of Internal Controls. We reviewed and evaluated the internal controls
associated with procurement planning and contract administration. Also, we examined
policies and regulations for developing internal control techniques, to include the NASA
Self-Assessment Guide and two SSC self-assessments performed at that Center covering
the periods May 1, 2006, through September 30, 2006, and October 1, 2006, through
March 31, 2007.

We found that management did not perform sufficient analysis in determining the scope
and benefit of the TOC. Management action taken in response to our recommendations
should correct this finding.

Prior Coverage. During the last 5 years, the Government Accountability Office has
issued one report of particular relevance to the subject of this report: “Lack of Disciplined
Cost-Estimating Processes Hinders Effective Program Management” (GAO-04-642, May
2004). Unrestricted reports can be accessed over the Internet at http://www.gao.gov.




                                                                                Enclosure 1
                                                                                Page 2 of 2
Management’s Comments




                        Enclosure 2
                        Page 1 of 3
Enclosure 2
Page 2 of 3
Enclosure 2
Page 3 of 3
